TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Voucher Audit of the Federal Financial
                System Software Technical Support Services
                       Contract - TIRNO-04-T-00116



                                         December 2005

                              Reference Number: 2006-10-027




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         December 29, 2005


 MEMORANDUM FOR CHIEF, AGENCY-WIDE SHARED SERVICES

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Voucher Audit of the Federal Financial System
                             Software Technical Support Services Contract - TIRNO-04-T-00116
                             (Audit # 200510033)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) Federal
 Financial Systems Software Technical Support Services Contract – TIRNO-04-T-00116. The
 overall objective of this review was to determine whether selected vouchers submitted and paid
 under contract number TIRNO-04-T-00116 were appropriate and in accordance with the
 contract’s terms and conditions.

 Synopsis
 Contract expenditures represent a significant outlay of IRS funds. The Treasury Inspector
 General for Tax Administration has made a commitment to perform audits of these expenditures.
 We initiated this audit to determine whether the vouchers submitted by the contractor and paid
 by the IRS were accurate, supported, and allowable.
 Except for minimal charges related to courier services that were questionable due to the lack of
 supporting documentation, we determined the approximately $1.5 million in charges on the
 6 vouchers we reviewed were accurate, supported, and allowable. The contractor indicated the
 receipts for the courier services were unavailable.
 As part of this audit, we also examined contractor performance reviews and interviewed both the
 Contracting Specialist and Contracting Officer’s Technical Representative to determine whether
 the contractor’s performance was satisfactory. Based on these limited auditing procedures,
 nothing came to our attention that would lead us to believe there were significant problems with
 the deliverables associated with the contract.
                    Voucher Audit of the Federal Financial System Software
                    Technical Support Services Contract - TIRNO-04-T-00116




Response
We did not make any recommendations in this report, and thus did not require a formal written
response to this report from the IRS. In providing informal comments to the discussion draft
report, IRS management concurred with the results of our review.
Copies of this report are also being sent to the IRS managers affected by the report. Please
contact me at (202) 622-6510 if you have questions or Daniel R. Devlin, Assistant Inspector
General for Audit (Headquarters Operations and Exempt Organizations Programs), at
(202) 622-8500.




                                                                                                2
                            Voucher Audit of the Federal Financial System Software
                            Technical Support Services Contract - TIRNO-04-T-00116




                                             Table of Contents

Background ............................................................................................................Page 1

Results of Review .................................................................................................Page 2
          Contract Charges and Voucher Verification Process......................................Page 2
          Contract Deliverables Were Acceptable.........................................................Page 3

Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ..........................Page 4
          Appendix II – Major Contributors to This Report ..........................................Page 6
          Appendix III – Report Distribution List .........................................................Page 7
                       Voucher Audit of the Federal Financial System Software
                       Technical Support Services Contract - TIRNO-04-T-00116




                                            Background

In March 2004, the Internal Revenue Service (IRS) awarded delivery order number
TIRNO-04-T-00116 off of a General Services Administration Schedule contract. The objective
of this time-and-materials delivery order was to provide technical support services for the IRS’
Automated Financial System.1
The delivery order was awarded for 1 year from March 22, 2004, through March 22, 2005.
Subsequently, the IRS issued a modification to the delivery order to extend the period of
performance to September 23, 2005. According to the IRS’ Request Tracking System,2 as of
August 17, 2005, the IRS approved approximately $4.6 million for payment to the contractor.
Because contract expenditures represent a significant outlay of IRS funds, the Treasury Inspector
General for Tax Administration made a commitment to perform audits of these expenditures.
This audit was designed to determine whether amounts paid by the IRS under this contract were
accurate, supported, and allowable through a review of contractor vouchers and supporting
documentation.
This audit was performed at the Office of Procurement in the Office of Agency-Wide Shared
Services in Oxon Hill, Maryland, and the contractor’s facility located in Fairfax, Virginia, during
the period August through November 2005. Opinions expressed in this report pertain only to the
vouchers included in our random and judgmental samples.
The audit was conducted in accordance with Government Auditing Standards. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




1
  The Automated Financial System was the IRS’ customized version of the Federal Financial System software
package, which has been subsequently replaced by the new Integrated Financial System (the IRS’ administrative
financial accounting system).
2
  The Request Tracking System is a web-based application that allows IRS personnel to prepare, approve, fund, and
track requests for the delivery of goods and services. The System also allows for electronic acceptance of items
delivered and provides an electronic interface with the Integrated Financial System for payment processing.
                                                                                                          Page 1
                          Voucher Audit of the Federal Financial System Software
                          Technical Support Services Contract - TIRNO-04-T-00116




                                   Results of Review

Contract Charges and Voucher Verification Process
We examined supporting documentation obtained from the IRS’ Office of Procurement, as well
as documentation received directly from the contractor, for a sample of six vouchers. The
vouchers were selected using a combination of random and judgmental sampling methods (see
Appendix I for details). The 6 vouchers had processing dates from September 2004 to
August 2005 and involved approximately $1.5 million in IRS payments.
The primary expenses claimed by the contractor were employee compensation and subcontractor
costs and, to a lesser extent, other direct costs such as communications, clerical, and travel.

Contract charges
Based on our audit tests, we identified minimal charges related to courier services that were
questionable due to a lack of supporting documentation. We provided details of these charges to
the contractor and the IRS. The contractor indicated receipts for these charges were unavailable.
All other charges related to the $1.5 million claimed on the 6 vouchers were accurate, supported,
and allowable.
The Federal Acquisition Regulation (FAR)3 stipulates a contractor is responsible for accounting
for costs appropriately and for maintaining records, including supporting documentation,
adequate to demonstrate that costs claimed have been incurred. The FAR also provides that
costs shall be allowed to the extent they are reasonable, allocable, and allowable under the FAR.

Voucher verification process
Contracts may be entered into and signed on behalf of the Federal Government only by
Contracting Officers (CO). The COs have the authority to administer or terminate contracts and
make related determinations and findings. The COs are responsible for ensuring performance of
all necessary actions for effective contracting, ensuring compliance with the terms of the
contract, and safeguarding the interests of the United States in its contractual relationships.
The requesting program office nominates a Contracting Officer’s Technical Representative
(COTR), who is the CO’s technical expert and representative in the administration of a contract
or task order. Usually, the CO will appoint the COTR by issuing a signed letter of appointment
tailored to meet the needs of each contract. The CO and COTR are required to jointly review all

3
    48 C.F.R. pt 1-53 (2002).
                                                                                           Page 2
                    Voucher Audit of the Federal Financial System Software
                    Technical Support Services Contract - TIRNO-04-T-00116



appointed duties. IRS guidance includes a sample letter of appointment which details
responsibilities of the COTR. One of these responsibilities is to review the contractor’s vouchers
to ensure they accurately reflect the work completed in accordance with the requirements of the
contract, certifying acceptance, and forwarding a copy of the invoice to the CO.
Additionally, IRS guidance provides a reference to the Office of Federal Procurement Policy’s,
A Guide to Best Practices for Contract Administration. The Guide offers, as a practical
technique, that COTRs reviewing vouchers under cost reimbursement contracts should review,
among other things, contractor time cards to help assess the reasonableness of direct labor
charges. The Guide also contains direction to review major cost categories, such as
subcontractor charges to again determine the reasonableness of the claimed costs. Though
the Guide, which was published in October 1994, does not include a specific reference to
time-and-materials contracts, we believe it is reasonable to infer that administration requirements
for cost-reimbursement contracts would also apply to time-and-materials contracts.
The COTR stated he or she reviews the vouchers for each task and ensures the labor rates and
mathematical calculations are accurate. The COTR also explained that the contractor provided
explanations for excessive hours charged for a specific employee. Additionally, the COTR
advised us that estimated hours for each task were monitored in weekly progress reports
provided by the contractor. However, the COTR stated he or she did not receive documentation
supporting labor hours (i.e., time reports) or other direct costs.
We did not identify a significant amount of questionable charges on the vouchers we reviewed,
notwithstanding the incomplete voucher verification process relating to documentation
supporting labor hours. We will continue to include a review of the IRS’ voucher verification
process in future contract voucher audits and, if warranted, recommend improvements to the
process.

Contract Deliverables Were Acceptable
We analyzed contractor performance reviews and interviewed both the Contract Specialist and
the COTR to determine whether the contractor’s deliverables were acceptable. This contract
provided technical support services for the IRS’ Automated Financial System.
Based on our limited auditing procedures, nothing came to our attention that would lead us to
believe there were significant problems with any of the deliverables associated with the vouchers
included in our tests.




                                                                                            Page 3
                        Voucher Audit of the Federal Financial System Software
                        Technical Support Services Contract - TIRNO-04-T-00116



                                                                                                 Appendix I

          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether selected vouchers submitted and
paid under contract number TIRNO-04-T-00116 were appropriate and in accordance with the
contract’s terms and conditions. To accomplish our objective, we:
I.      Analyzed the Internal Revenue Service’s (IRS) voucher verification process prior to
        certifying payment to the contractor.
        A. Interviewed the Contracting Specialist and the Contracting Officer’s Technical
           Representative to confirm our understanding of the voucher verification process.
        B. Documented voucher processing risks including accuracy, supportability, and
           allowability of voucher charges and concluded as to the overall control environment.
        C. Interviewed IRS personnel involved in the administration of the contract to identify
           any concerns that existed regarding the contractor, its billing practices, or any specific
           invoices.
II.     Verified whether voucher charges submitted by the contractor and paid by the IRS were
        accurate, supported, and allowable.
        A. Used a sample selection method involving both random and judgmental selections
           from the universe of the Request Tracking System (RTS)1 recorded transactions. As
           of August 17, 2005, there were 17 transactions in the RTS, which corresponded with
           the 17 vouchers received and paid by the IRS. We selected a sample size of 6
           vouchers, or approximately one-third of the 17 vouchers available. We judgmentally
           selected one voucher because we identified a potential error with a labor rate during
           our initial review of all of the vouchers. Using the Data Analysis tool in Excel, we
           randomly selected the remaining five vouchers. The 6 vouchers had processing dates
           from September 2004 through August 2005 and involved approximately $1.5 million
           in IRS payments. We believed this sampling method would provide sufficient
           evidence to accomplish our audit objective and would result in acceptable
           management corrective action without the need for a precise projection of sample
           results.


1
 The RTS is a web-based application that allows IRS personnel to prepare, approve, fund, and track requests for the
delivery of goods and services. The RTS also allows for electronic acceptance of items delivered and provides an
electronic interface with the Integrated Financial System (the IRS’ administrative financial accounting system) for
payment processing.

                                                                                                          Page 4
                    Voucher Audit of the Federal Financial System Software
                    Technical Support Services Contract - TIRNO-04-T-00116



       B. Obtained supporting documentation for the vouchers in the sample from the IRS and
          contractor and performed the following tests:
          1. Verified the mathematical accuracy of the vouchers and supporting
             documentation.
          2. Traced voucher charges to supporting documentation.
          3. Verified whether voucher charges were actually paid by the contractor through
             examination of payroll records and extracts from the contractor’s financial
             records.
          4. Verified whether voucher charges were allowable under the terms and conditions
             of the contract.
III.   Verified through interviews and reviews of project files whether there was acceptable
       existence of deliverables, as stipulated in the contract, for the vouchers included in our
       sample.




                                                                                            Page 5
                   Voucher Audit of the Federal Financial System Software
                   Technical Support Services Contract - TIRNO-04-T-00116



                                                                              Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
John R. Wright, Director
Thomas J. Brunetto, Audit Manager
Terrey Haley, Senior Auditor
Debra Kisler, Senior Auditor
James Mills, Senior Auditor




                                                                                      Page 6
                  Voucher Audit of the Federal Financial System Software
                  Technical Support Services Contract - TIRNO-04-T-00116



                                                                 Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Director, Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Agency-Wide Shared Services OS:A
       Office of Procurement OS:A:P




                                                                       Page 7
